pos
I

2311 Douglas Street CC ICKL E s E-Mail Address:

Omaha, Nebraska 68102-1214 ist, 1933 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

MOUNTAINLANDS CONSERVANCY, LLC;
THIRD DISTRICT PARKLANDS, LLC; and
THIRD DISTRICT MEADOWLANDS, LLC,

Petitioners,
v.
CALIFORNIA COASTAL COMMISSION,
COUNTY OF LOS ANGELES,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4940 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of December, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Ze Chk
RENEE J. GOSS 9. ( ddan “
Notary Public

My Comm. Exp. September 5, 2023
Affiant 40199

 
